            REVIEW OF
PROPOSED LEASE PAYMENT RECOVERIES
 NORTHEAST AND CARIBBEAN REGION
  REPORT NUMBER A080179/P/2/R09003

           JULY 24, 2009
                            General Services Administration
                              Office of Inspector General
                            Jacob K. Javits Federal Building
                                 New York, NY 10278

Date:         July 24, 2009

Reply to      Howard R. Schenker
Attn of:      Regional Inspector General for Auditing, New York Field Office (JA-2)

Subject:      Review of Proposed Lease Payment Recoveries
              Northeast and Caribbean Region
              Report Number A080179/P/2/R09003

To:           John Scorcia
              Regional Commissioner, Public Buildings Service (2P)


In response to a request from the Director, Real Estate Acquisition Division (formerly known as
the Account Management Division), Northeast and Caribbean Region, the Office of Inspector
General has reviewed eight proposed lease payment recoveries as calculated by PRG-Schultz
USA, Inc. (PRG), a GSA cost recovery contractor.


Background

On January 16,2003, OMB issued guidance to all executive departments and agencies citing the
Administration's Improved Financial Performance initiative to reduce erroneous payments made
by the Federal government. Per OMB, "erroneous payments waste taxpayer dollars and divert
resources from their intended beneficiaries."

In keeping with this initiative, Section 831 of the National Defense Authorization Act for Fiscal
Year 2002 requires that agencies that enter into contracts with a total value in excess of $500
million in a fiscal year must carry out a cost-effective program for identifying errors made in
paying contractors and for recovering amounts erroneously paid to the contractors. A required
element of such a program is the use of recovery audits and recovery activities.

A recovery audit is a review and analysis of the Government agency's books, supporting
documents, and other available information supporting its payments that is specifically designed
to identify overpayments to contractors that are due to payment errors. It is not an audit in the
traditional sense. Rather it is a control activity designed to assure the integrity of contract
payments, and as such, it is a management function and responsibility.

As a participant in this initiative, GSA has engaged PRG-Schultz International, Inc. (PRG) as its
contracted recovery auditor. PRG reviews payments related to leasing, building services, supply
and information technology to identify erroneous payments. According to GSA's Chief
Financial Officer, as of September 30, 2007, PRG has identified $53 million in erroneous
payments, of which $35 million was successfully recovered.




                         Federal Recycling Program   0   Printed on Recycled Paper
In fiscal year 2008, PRG performed a recovery audit of lease payments in Region 2. On April 16
and June 3, 2008, PRG provided the Region with results that identified potential overpayments
totaling $1,830,364 associated with 25 of the leases that they reviewed. The Director of Region
2’s Account Management Division assigns staff to review the results received from PRG. To
augment this staff review process, the Director also requested that the Office of Inspector
General review eight of PRG’s results before they approached the lessors to request refunds.
This report presents the results of our review of these eight files.


Objectives, Scope and Methodology

Our audit objectives were to determine whether: (1) PRG’s calculation of the proposed lease
payment recoveries are accurate and supported by appropriate records and lease clauses and
(2) real estate tax escalation payments were properly supported.

To accomplish these objectives, the auditor:

(1)    reviewed original and supplemental lease agreements for clarification of terms and
       conditions;

(2)    reviewed Lease Digest Action (GSA Form 620) forms for proper authorization of lease
       payments;

(3)    reviewed Operating Cost Escalation Worksheets for verification of the lease escalation
       increases;

(4)    retrieved and analyzed data from GSA’s Pegasys system for confirmation of monthly
       lease payments made by GSA’s Finance Division;

(5)    analyzed PRG’s methodology and supporting schedules used for calculating the proposed
       lease payment recoveries;

(6)    reviewed real estate tax computation worksheets, municipal tax records and other
       supporting documentation used in calculating the appropriate real estate tax escalation
       payments due; and

(7)    interviewed GSA Account Management Division and Realty Support Branch officials to
       obtain background information and to determine the proper application of various lease
       terms and conditions.




                                           -2-
Results of Review

As a result of our review of eight lease files, we have identified an additional $157,956 of
potential lease payment recoveries that were not included in PRG’s recommended recovery
calculations.


Finding 1 – Upward Adjustment of Proposed Lease Payment Recoveries Previously
Calculated by PRG

For the eight lease files we reviewed, PRG calculated $363,800 of potential lease payment
recoveries. However, based on our review of PRG’s analysis and the associated lease files, we
calculated potential lease payment recoveries of $514,874, or an additional $151,074. Please
refer to Appendix B for details regarding our analysis.

PRG’s analysis addressed lease payments made through either February 29 or March 31, 2008.
In order to provide regional management with comparable results, we matched PRG’s end date
for each lease reviewed. Therefore, our potential lease payment recovery amounts are only
calculated through PRG’s ending dates. However, for four of the leases, overpayments have
continued beyond PRG’s end dates and will continue until the respective incorrect payments are
adjusted.


Finding 2 – Overpayment of Real Estate Tax Escalation Adjustment For Lease Number
LNJ23234

We found that GSA overpaid $6,882 of real estate taxes for lease number LNJ23234. This
overpayment was not addressed by PRG. Details regarding this tax overpayment are discussed
in Appendix C.


Recommendation

We recommend that the Director, Account Management Division, initiate prompt action to
recoup overpayments that have been identified and/or verified for the eight leases we reviewed.
Similarly, timely actions to verify and recoup proposed overpayments for the remaining leases
reviewed by PRG should also be initiated.


Management Comments

Management asserted that corrective action has been taken on the reported overpayments. In
addition, management provided an action plan to mitigate errors in the future. Refer to
Appendix A for a copy of management’s response.




                                          -3-
A recovery audit is defined as a control activity designed to assure the integrity of contract
payments, and as such, it is a management function and responsibility. Our audit objectives
directly address and test the accuracy of this control.

The review was conducted during the period of June 2008 through January 2009 in accordance
with generally accepted government auditing standards.

This report documents partial preliminary results that were conveyed to regional management on
August 20, October 7 and October 8, 2008.

If you have any questions regarding this report, please contact me on (212) 264-8623 or Kyle
Donaldson on (2 'if)
                   264-8630.


 M~
STEVEN JU'Yj"TA
Audit Manager
NY Field Audit Office (JA-2)




                                          -4-
REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
      NORTHEAST AND CARIBBEAN REGION
       REPORT NUMBER A080179/P/2/R09003

          MANAGEMENT COMMENTS




                 A-1
REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
      NORTHEAST AND CARIBBEAN REGION
       REPORT NUMBER A080179/P/2/R09003

          MANAGEMENT COMMENTS




                 A-2
                 REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
                       NORTHEAST AND CARIBBEAN REGION
                        REPORT NUMBER A080179/P/2/R09003

    SUMMARY OF THE REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
                  AND RELATED AUDIT ADJUSTMENTS


                 PER CONSULTANT                                     PER AUDIT
            Lease     Lease                               Lease       Lease
  Lease    Payments  Payments Proposed                   Payments    Payments Proposed            Audit
 Number      Made      Due    Recovery                     Made        Due    Recovery         Adjustments     Notes
              (A)          (B)       (C)=(A)-(B)           (D)         (E)       (F)=(D)-(E)       (C) - (F)
LPR19069   $ 951,191    $ 945,468     $   5,723       $ 951,074     $ 945,812     $   5,262    $       461      (1)
LPR19057    1,346,313    1,343,718        2,593       1,346,313      1,344,803        1,510          1,083      (2)
LNY23382      814,094      805,241        8,853         814,094        805,241        8,853              0      (3)
LNJ23234      583,388      579,808        3,580         588,269        588,514        (245)          3,825      (4)
LNY22901    4,673,090    4,669,181        3,909       4,673,071      4,673,087            0          3,909      (5)
LNY22885   83,966,565   83,733,677      232,888      83,966,567     83,565,738      400,829      (167,941)      (6)
LNY23333    1,099,478    1,081,157       18,321       1,099,478      1,081,157       18,321              0      (7)
LPR19030    1,488,401    1,400,469       87,933       1,488,401      1,408,057       80,344          7,589      (8)
TOTALS                                $ 363,800                                   $ 514,874    $ (151,074)

  NOTES:

  (1) The annual adjusted rent for this lease was scheduled to decrease from $175,056 to $164,464
      on August 17, 2007, the start of the lease’s sixth year (these amounts were derived by PRG
      and include PRG’s calculation of accumulated CPI increases). PRG found, however, that
      GSA continued to pay rent at the old, higher rate even though the lease had entered its sixth
      year. PRG’s analysis concluded that GSA had overpaid this lease by $5,723 through
      February 29, 2008.

     We verified that GSA did start overpaying on this lease beginning in the sixth year as the
     annual rent was not reduced in accordance with lease terms. However, we calculated a
     proposed recovery amount of $5,262 through February 29, 2008. Our lower recovery
     amount is attributable to differences in calculating CPI adjustments; for example, PRG did
     not include a CPI escalation for the sixth year of the lease but we did.

     PRG’s review covered lease payments through February 29, 2008. Therefore, until the
     incorrect monthly lease payment is adjusted, overpayments will continue. GSA is paying
     $14,588 per month; we calculate a monthly rental of $13,818. Hence, the continuing
     monthly overpayment totals $770.

  (2) The annual adjusted rent for this lease was scheduled to decrease from $248,748 to $243,562
      on October 1, 2007, the start of the lease’s sixth year (these amounts were derived by PRG
      and include PRG’s calculation of accumulated CPI increases). PRG found, however, that
      GSA continued to pay rent at the old, higher rate even though the lease had entered its sixth
      year. PRG’s analysis concluded that GSA had overpaid this lease by $2,593 through March
      31, 2008.


                                                   B-1
    SUMMARY OF THE REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
                  AND RELATED AUDIT ADJUSTMENTS
                           (CONTINUED)

NOTES:

(2) We verified that GSA did start overpaying on this lease beginning in the sixth year as the
    annual rent was not reduced in accordance with lease terms. However, we calculated a
    proposed recovery amount of $1,510 through March 31, 2008. Our lower recovery amount is
    attributable to differences in calculating CPI adjustments; PRG did not include a CPI
    escalation for the sixth year of the lease but we did.

    PRG’s review covered lease payments through March 31, 2008. Therefore, until the
    incorrect monthly lease payment is adjusted, overpayments will continue. GSA is paying
    $20,729 per month; we calculate a monthly rental of $20,478. Hence, the monthly
    overpayment totals $251.

(3) Under terms of this lease, the government was to benefit from a rent-free period from July
    10, 2006 through January 9, 2007 with rental payments to commence as of January 10, 2007.
    PRG found that GSA made an additional rent payment of $8,853 on February 8, 2007 to
    apparently compensate the landlord for four additional days: January 6 through January 9,
    2007 (PRG believes that because January 6, 2007 is 180 days after July 10, 2006, the
    effective date of the lease, this payment was erroneously calculated). However, since lease
    payments were supposed to commence six months after the effective date of the lease (i.e.
    January 10, 2007), this extra payment should not have been made.

    We agree with PRG’s conclusion. Our analysis shows that all rental payments that were
    required to be made as of January 10, 2007 were fully accounted for. Therefore, the
    additional $8,853 payment that was made on February 8, 2007 was unnecessary and should
    be recovered.

(4) The annual adjusted rent for this lease was scheduled to decrease from $108,561 to $100,805
    on November 1, 2007, the start of the lease’s sixth year (these amounts were derived by PRG
    and include PRG’s calculation of accumulated CPI increases). PRG found, however, that
    GSA continued to pay rent at the old, higher rate even though the lease had entered its sixth
    year. PRG’s analysis concluded that GSA had overpaid this lease by $3,580 through March
    31, 2008.

    We verified that GSA did start overpaying on this lease beginning in the sixth year as the
    annual rent was not reduced in accordance with lease terms. However, we noted that a
    reduced lease payment was processed on May 1, 2008 that appears to have been designed to
    recoup prior month’s overpayments 1 – PRG’s analysis did not include this payment. After
    accounting for this payment and reapplying corrected CPI factors (we used CPI factors that

1
 We were not able to verify the purpose of the reduced payment or obtain the actual calculation. However, unless
additional information comes to light, we will assume that the reduction in the monthly lease payment was made in
order to recoup the previous five months worth of overpayments.


                                                  B-2
  SUMMARY OF THE REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
                AND RELATED AUDIT ADJUSTMENTS
                         (CONTINUED)

NOTES:

(4) correspond to the commencement month of the lease (Nov), not the month prior (Oct), as
    stipulated in this lease's escalation clause), we conclude that GSA may have actually
    underpaid for this lease by $245.

(5) Citing Supplemental Lease Agreement No.2 (SLA), PRG determined that the total escalated
    annual base rent should have increased from $430,602 to $432,323 for the lease’s extension
    period (April 1, 2007 thru March 31, 2008). However, starting April 1, 2007, GSA increased
    the annual rent to $436,232. As a result, PRG concluded that GSA is overpaying by $325.11
    per month, resulting in a total proposed lease payment recovery of $3,909.

   However, the SLA referred to by the consultant was later modified. As outlined in Digest
   Action Number 19, as well as SLA No. 2, the total annual base rent increased from $430,602
   to $436,232 for the extension period (April 1, 2007 thru March 31, 2008). This agrees with
   what GSA was paying. Therefore, we determined that there is no overpayment associated
   with this lease.

(6) PRG’s analysis concluded that GSA overpaid Lease Number LNY22885 by $232,888 from
    October 20, 2002 through November 30, 2005. According to PRG’s report, “effective June
    1, 2002, paragraph 2 of SLA 21 increases annual rent by $24,950, from $9,913,911 to
    $9,938,861, to reflect the additional operating costs associated with repair and maintenance
    of items specified in paragraph 1 of SLA 21. The base operating cost is also increased by
    $24,950, from $1,219,000 to $1,243,950. Digest Action 7 correctly increases the operating
    rent from $1,293,749 to $1,318,699 to account for the $24,950 increase in operating costs.
    The problem arises when Digest Action 8 increases rent by $92,848 for the 10/20/2002
    operating cost adjustment. The operating rent only increased from $1,318,699 to $1,336,848,
    an increase of $18,149, therefore the operating cost adjustment should have been processed
    for $18,149, rather than $92,848.” Effectively, the entire cumulative operating cost increase
    was added to the previous year’s total adjusted rent, rather than just the incremental
    increase. As a result, GSA overpaid by $74,749 per year ($92,848 - $18,149) for the
    affected period.

   We agree with PRG’s conclusion regarding the period from October 20, 2002 through
   November 30, 2005. However, our analysis shows an additional error in this lease’s rental
   calculation that has continued beyond November 30, 2005 and results in additional potential
   overpayments. Specifically, as a further consequence of the error reported by PRG, the base
   annual rental associated with this lease was increased by $74,749 on the CPI Escalation
   worksheet that was prepared for the lease year beginning on October 20, 2002. The
   following document excerpts illustrate this fact:




                                          B-3
  SUMMARY OF THE REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
                AND RELATED AUDIT ADJUSTMENTS
                         (CONTINUED)

NOTES:

(6)




       CPI Escalation Worksheet Dated 12/6/01 for the Lease Period 10/20/01 to 10/19/02




       CPI Escalation Worksheet Dated 10/29/02 for the Lease Period 10/20/02 to 10/19/03


      Note that the base rent should have remained the same from 01/02 to 02/03; there was no
      reason for it to have changed. The fact that the increase equals $74,749, the amount by
      which operating costs were overstated, indicates that both errors are interrelated.




                                                B-4
  SUMMARY OF THE REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
                AND RELATED AUDIT ADJUSTMENTS
                         (CONTINUED)

NOTES:

(6) This erroneous adjustment to the base rent adversely impacted the annual rent calculation
    beginning on December 1, 2005. SLA 25 established a new annual rental amount of
    $10,343,701 for December 2005 and $10,194,661 for the period of January 1, 2006 through
    October 19, 2019. SLA 25 also reset the base cost of services to $1,499,749 as of December
    1, 2005. These numbers incorporate the erroneous base rent, as follows:

                                                   December        1/1/2006 to
                                                     2005*         10/19/2019
                     Annual Rental                $10,343,701      $10,194,660
                     Base Cost of Services          1,499,749        1,499,749
                     Effective Base Rent          $ 8,843,952      $ 8,694,911

                         *SLA 25 added an additional $149,041 to the rent in 12/05
                          without explanation

   As previously stated, the lease’s base rent should be $8,620,162. Consequently, as of
   December 1, 2005, GSA has continued to overpay this lease by $74,749 per year. This
   equates to audited total potential recoveries of $400,829 for this lease (through February 29,
   2008, PRG’s review period).

   Overpayments will continue until the incorrect annual lease payment is adjusted. GSA is
   paying $857,626 per month; we calculate a monthly rental of $851,397. Hence, the monthly
   overpayment totals $6,229.

(7) The annual adjusted rent for this lease was scheduled to decrease from $407,697 to $256,242
    on November 1, 2007, in accordance with SLA 2. PRG found, however, that GSA continued
    to pay rent at the old, higher rate through December 14, 2007. PRG’s analysis concluded
    that GSA had overpaid this lease by $18,321.

   We agree with PRG’s conclusion. The proposed lease payment recovery of $18,321 is
   accurate.

(8) PRG’s analysis concluded that GSA overpaid lease number LNY19030 by $87,933, as
    follows:

   (a) Per SLA 5, paragraph 2(b), for the period of December 18, 2000 thru December 31, 2000,
       GSA underpaid the lessor by $3,972 – annual rental of $194,149 was due, GSA only paid
       based on an annual rental of $88,610.




                                            B-5
  SUMMARY OF THE REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
                AND RELATED AUDIT ADJUSTMENTS
                         (CONTINUED)

NOTES:

(8) (b) Per SLA 5, paragraph 2(c), for the period of January 1, 2001 through September 30,
        2001, GSA overpaid the lessor by $923 – annual rental of $275,463 was due, GSA paid
        based on an annual rental of $276,693.

   (c) Based on SLA 4, PRG derived an annual rental (inclusive of CPI increases) of $153,335
       for the period beginning November 10, 2005. PRG found that GSA has been paying this
       lease based on an annual rental of $196,606. Therefore, PRG concluded that GSA has
       overpaid this lease by $90,982 for the period of November 10, 2005 thru March 31, 2008.

   We verified that GSA did overpay on this lease. However, we calculated a proposed lease
   recovery amount of $80,344 through March 31, 2008. Our lower recovery amount is
   attributable to differences in calculating CPI adjustments; PRG did not include any additional
   CPI escalation adjustments after November 10, 2005 but we did.

   PRG’s review covered lease payments through March 31, 2008. Therefore, until the
   incorrect monthly lease payment is adjusted, overpayments will continue. GSA is paying
   $16,384 per month; we calculate a monthly rental of $13,703. Hence, the monthly
   overpayment totals $2,681.




                                          B-6
                                                                                                                                              FOR OFFICIAL USE ONLY


                                                 REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
                                                       NORTHEAST AND CARIBBEAN REGION
                                                        REPORT NUMBER A080179/P/2/R09003


                                                        SUMMARY OF REAL ESTATE TAX OVERPAYMENT
                                                              FOR LEASE NUMBER LNJ23234


                                                                                                    TAX ESCALATION AS RECALCULATED BY OIG

  TAX ESCALATION AS CALCULATED AND PAID BY GSA (1)                       Allocation of Annual Real Estate Taxes     Base Year RE Taxes

                                                                                       5-Story
                       Base                                   Tax                      Office        Sheraton      Base      5-Story Office                    Tax
Tax        Total       Year                    % of Govt   Escalation      Total        Bldg.          Hotel       Year          Bldg.                      Escalation      Audit
Year       Taxes       Taxes     Increase      Occupancy     Paid          Taxes      Allocation     Allocation    Taxes       Allocation     Difference       Due        Adjustment
            (A)         (B)      (A)-(B)=(C)      (D)      (C)x(D)=(E)                    (F)                       (G)      (G)x 45%=(H)     (F)-(H)=(I)   (I)x(D)=(J)    (E) – (J)
            (2)         (3)                       (1)                       (2)           (4)           (4)         (3)           (5)                                        (6)
2007     $1,110,294   $909,324    $200,970       0.02521       $5,066    $1,110,294     $506,082       $604,212   $909,324        $409,196      $96,886        $2,443
2006      1,089,378    909,324      180,054      0.02521        4,539     1,089,378      490,220        599,158    909,324         409,196       81,024          2,043
2005      1,036,450    909,324      127,126      0.02521        3,205     1,036,450      466,403        570,048    909,324         409,196       57,207          1,442
                                                              $12,810                                                                                          $5,928         $6,882



   NOTES:

   (1)        Under lease number LNJ23234, the government leases 3,615 rentable square feet (RSF) of office space on the second floor of
              Woodbridge Place, located at 517 Route One South, Iselin, NJ. The lease terms provide for an annual real estate tax escalation,
              based on the government’s share of any increase in real estate taxes during the lease term over the amount established as the base
              year (i.e., 2002) tax. For this purpose, the Government's percentage of occupancy is 2.521 percent based upon an occupancy of
              3,615 RSF in a building of 143,395 RSF. Finally, the block and lot identifiers for this building are Block 369, Lot 100B.




                                                                                      C-1
                SUMMARY OF REAL ESTATE TAX OVERPAYMENT
                      FOR LEASE NUMBER LNJ23234
                              (CONTINUED)

NOTES:

(2)   The real estate tax bills submitted by the lessor for 2005 and 2006 reference Block 369,
      Lot 100B and show total taxes paid of $1,036,450 and $1,089,378, respectively.
      However, the bills also describe the property as being a Sheraton hotel with a total
      assessed value of approximately $15.6 million. In addition, the bills contain handwritten
      notations that allocate the taxes paid between the hotel and an office building.

      We searched NJ real estate tax records and found that Lot 100B was subdivided into two
      lots in 2007: Lot 100.021 contains the five story office building (assessed value of $6.9
      million) and Lot 100.02 contains the Sheraton hotel (assessed value of $8.2 million).

      Consequently, for 2007, the real estate tax bill submitted by the lessor references Block
      369, Lot 100.021 and shows total taxes paid of $506,082. For this year, however, the
      bills describe the property as being a five story office building with an assessed value of
      approximately $6.9 million. To arrive at total 2007 taxes of $1,110,294, the lessor added
      another $604,212 that was associated with Block 369, Lot 100.02, the Sheraton property.

(3)   The lease was entered into on July 3, 2002. Accordingly, the base year real estate taxes
      represent all the real estate taxes paid in 2002.

(4)   It is clear from the information delineated in note (2) that the real estate tax escalation
      calculation submitted by the lessor and approved by GSA was based on real estate taxes
      assessed for both properties: the office building as well as the hotel. This is not
      consistent with various terms of the lease:

      a. According to paragraph 1.7(A), for purposes of tax adjustments, “real estate taxes…
         are only those taxes which are assessed against the building and/or the land upon
         which the building is located, without regard to benefit to the property, for the
         purpose of funding general Government services.” The referenced ‘building’ is the
         office building, as described on the first page of the lease. Therefore, the only taxes
         that are subject to an escalation adjustment are those taxes attributable to the office
         building.

      b. According to paragraph 1.7(F), “the Government shall pay its share of tax
         increases…based on the ratio of the rentable square feet occupied by the Government
         to the total rentable square feet in the building…For the purpose of this lease, the
         Government’s percentage of occupancy…is 2.521 percent based upon a occupancy of
         3,615 rentable square feet in a building of 143,395 rentable square feet…” In




                                          C-2
                SUMMARY OF REAL ESTATE TAX OVERPAYMENT
                      FOR LEASE NUMBER LNJ23234
                              (CONTINUED)

NOTES:

(4)   b. order to properly allocate the real estate taxes associated with both buildings in
         accordance with this clause, the percentage of occupancy should have been based on
         the combined RSF of both buildings. However, the referenced 143,395 RSF only
         encompasses the office building. Therefore, the calculated percentage of occupancy
         should only be applied to real estate taxes attributable to the office building.

      In order to correct the tax escalation calculation, we derived the real estate taxes
      attributable to the office building for each affected year. Since the office building was
      assigned to its own Lot in 2007, the $506,082 represents the actual 2007 tax assessment
      attributable to the office building. For 2005 and 2006, we allocated the total taxes paid
      for both buildings based on a ratio of their respective assessed values. Consequently, we
      determined that 45% of the total taxes were attributable to the office building ($6.9
      million ÷ $15.1 million ≈ 45%).

(5)   As indicated in note (3), for purposes of the tax escalation clause, base year taxes were
      originally derived by aggregating all taxes paid in 2002. However, since this amount
      included taxes assessed for both buildings, the base year amount must be corrected to
      only include taxes attributable to the office building. Consequently, using the ratio
      derived in note (4), we recalculated base year taxes to be $409,196 ($909,324 x 45%).

(6)   Based on our analysis, GSA overpaid real estate taxes by $6,882 and should seek
      reimbursement from the lessor. Finally, GSA should ensure that the appropriate
      allocation base is used when calculating future tax escalation adjustments.




                                         C-3
              REVIEW OF PROPOSED LEASE PAYMENT RECOVERIES
                    NORTHEAST AND CARIBBEAN REGION
                     REPORT NUMBER A080179/P/2/R09003

                                   REPORT DISTRIBUTION

                                                                     Copies

Regional Commissioner, Public Buildings Service (2P)                    3

Office of the Chief Financial Officer (B)                               3

Acting Commissioner, Public Buildings Service (P)                       1

Inspector General (J)                                                   4

Assistant Inspector General for Auditing (JA)                           1

Director, Operations Staff (JAO)                                        1

Deputy Assistant Inspector General for Real Property Audits (JA-R)      1

Director, Internal Control and Audit Division (BEI)                     1

Special Agent in Charge (JI-2)                                          1




                                            D-1
